OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/EGYPT’S
EFFORTS TO MITIGATE
ENVIRONMENTAL IMPACT IN
ITS PROJECT PORTFOLIO
AUDIT REPORT NO. 6-263-10-005-P
AUGUST 19, 2010




CAIRO, EGYPT
Office of Inspector General


August 19, 2010

MEMORANDUM

TO:                  USAID/Egypt Acting Mission Director, Thomas Delaney

FROM:                Regional Inspector General/Cairo, Jacqueline Bell /s/

SUBJECT:             Audit of USAID/Egypt’s Efforts to Mitigate Environmental Impact in Its Project
                     Portfolio (Report No. 6-263-10-005-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
carefully considered your comments on the draft audit report and included your comments in
their entirety in Appendix II.

The reports contained five recommendations for your action. On the basis of your written
comments, we consider that both management decisions and final actions have been taken on
all recommendations.

Thank you for the cooperation and courtesy extended to the audit team during this audit.




U.S. Agency for International Development
USAID Office Building
1/A Ahmed Kamel off El-Laselki St.
New Maadi, Cairo, Egypt
www.usaid.gov/oig
CONTENTS
Summary of Results ....................................................................................................... 1

Audit Findings ................................................................................................................. 4

     USAID/Egypt Should Improve Monitoring of Environmental
     Mitigations in Its Avian Influenza Activities.................................................................. 7

     USAID/Egypt Should Have a Process to Verify That
     Environmental Requirements Are Included in Its Solicitations .................................... 9

     USAID/Egypt Should Formally Designate a Mission
     Environmental Officer................................................................................................ 11

Evaluation of Management Comments ....................................................................... 13

Appendix I—Scope and Methodology......................................................................... 15

Appendix II—Management Comments........................................................................ 17

Appendix III—Projects Reviewed ................................................................................ 22

Appendix IV—Environmental Determinations for Projects Reviewed ..................... 23

Appendix V—USAID/Egypt’s Environmental Compliance Procedures ................... 24

Appendix VI—Environmental Staffing and Procedures ............................................ 25
SUMMARY OF RESULTS
Title 22 of the Code of Federal Regulations, Part 216 (22 CFR 216), describes the
environmental procedures that USAID must follow on all its programs, projects, and
activities. These procedures are designed to ensure environmentally sound design and
management of development activities, and to prevent adverse environmental impacts to
beneficiaries or other groups resulting from inadequate attention to environmental issues
in design and operation. USAID guidance—Automated Directives System (ADS),
Chapter 204, “Environmental Procedures”—ensures that the requirements of 22 CFR
216 are included in project design and implementation. ADS 204 requires each team
and activity manager or agreement/contracting officer’s technical representative
(AOTR/COTR) to plan how they will comply with environmental requirements for each
activity and monitor ongoing activities for compliance with approved environmental
reviews and documentation.

The environmental review begins with an Initial Environmental Examination of the
reasonably foreseeable effects of a proposed action on the environment. The
examination’s function is to provide a brief statement of the factual basis for a
determination as to whether an Environmental Assessment 1 or an Environmental Impact
Statement 2 will be required. A project may have more than one environmental
determination. For example, a project with construction activities resulting in an
environmental determination requiring mitigation and monitoring may also have activities
related to surveying, planning, technical assistance, and training that receive an
environmental determination called a categorical exclusion because they require no
mitigation (see Appendix IV). The extent of mitigation and monitoring required depends
on the determination. The following table shows the types of determinations.
                            Environmental Determinations and Conditions 3
    Determination                            Description                             Attached Environmental
                                                                                     Management Conditions
    Categorical       One of the classes of activities that pose a low risk of     None
    Exclusion         significant adverse environmental impact, and no
                      unusual circumstances exist to contradict this
                      assumption.
    Negative          The activity is found to pose very low risk of significant   None
    Determination     environmental impact.
    Negative          The activity poses very low risk of significant              Requires specified mitigation
    Determination     environmental impact if specified environmental              and monitoring measures
    with Conditions   mitigation and monitoring measures are implemented.
    Positive          The activity poses substantial risks of significant          Requires implementation of
    Determination     adverse environmental impacts. The activity cannot           mitigation and monitoring
                      proceed until an Environmental Assessment is                 specified by the
                      developed and approved.                                      Environmental Assessment



1
  An Environmental Assessment is a detailed study of the reasonably foreseeable significant
  effects, both beneficial and adverse, of a proposed action on the environment of a foreign
  country or countries .
2
   An Environmental Impact Statement is a detailed study of the reasonably foreseeable
  environmental impacts, both positive and negative, of a proposed USAID action and its
  reasonable alternatives. It is a specific document having a definite format and content.
3
  USAID Environmental Procedures in Brief, http://www.encapafrica.org/eptm.htm#download.



                                                                                                                1
USAID has invested approximately $2.2 billion in large-scale infrastructure projects in
Egypt during the past 25 years. Two infrastructure programs in the water and
wastewater sector developed master plans that identified and prioritized critical
infrastructure work needed in Egypt. As those programs were completed, USAID
obtained funding for construction of some of the small-scale activities identified in the
master plans. These small-scale water and wastewater treatment projects comprise the
bulk of USAID/Egypt’s current infrastructure projects.

USAID/Egypt uses a mission order for its environmental procedures that documents the
internal processes for carrying out required environmental analyses. The project or
activity manager is responsible for seeing that the required environmental reviews are
carried out during project implementation. The mission environmental officer provides
guidance for the project team on environmental review requirements and document
preparation. The mission environmental officer is responsible for reviewing each
document to ensure accuracy and completeness and for forwarding environmental
review documents to the bureau environmental officer for approval through the regional
environmental advisor. AOTRs/COTRs and activity managers are responsible for
monitoring compliance with Initial Environmental Examination and Environmental
Assessment conditions.

The Regional Inspector General/Cairo conducted this audit as part of a worldwide audit
in the Office of Inspector General’s fiscal year (FY) 2010 audit plan. The objective of the
audit was to determine whether USAID/Egypt was achieving its goals and objectives of
mitigating environmental impact, which include incorporating 22 CFR 216 and Agency
requirements in project design and implementation. The audit reviewed 20 projects
implemented in FYs 2008 and 2009 valued at $150 million that included activities with
potential for adverse environmental impact (see Appendix III). The amount obligated for
the 20 projects for FYs 2008 and 2009 was $81 million and $25 million was disbursed.

For the 20 projects reviewed, USAID/Egypt is achieving its goals and objectives to
mitigate environmental impact, and the audit found no indication of significant adverse
impact to the environment as a result of USAID-implemented activities. For projects with
environmental determinations requiring mitigation and monitoring, the mission developed
mitigating measures to minimize the potential adverse effects resulting from these
activities, incorporated the measures into the project’s technical specifications, and—
with the exception of the avian influenza activities—is monitoring compliance with
environmental requirements through its project management.

Although USAID/Egypt has taken steps to develop mitigating measures to minimize
adverse effects of its activities on the environment, the audit found some areas of the
mission’s environmental management practices that could be strengthened.
USAID/Egypt could improve its environmental procedures by (1) improving its monitoring
of the specified mitigating measures for avian influenza activities (page 9), (2)
developing a procedure to ensure that environmental factors and mitigating measures
that are requirements identified in Initial Environmental Examinations are included in
solicitation documents and implementation instruments such as for contracts and
agreements (page 10); and (3) formally designating a mission environmental officer
(page 12).

The audit recommends that USAID/Egypt:



                                                                                         2
   Include environmental responsibilities for avian influenza activities in the work objectives
    of staff in the Office of Health and Population (page 9).

   Obtain, review, and verify Environmental Mitigation and Monitoring Plans from its
    implementers to ensure that actions required by the Initial Environmental Examination
    are conducted (page 9).

   Develop procedures that clearly indicate the environmental determinations of Initial
    Environmental Examinations in subobligation checklists (page 10).

   Develop and implement procedures to verify that Initial Environmental Examination
    conditions are included in solicitation documents (page 10).

   Formally designate a mission environmental officer (page 12).

    The audit scope and methodology are described in Appendix I.




                                                                                              3
AUDIT FINDINGS
USAID/Egypt is achieving its goals and objectives to mitigate environmental impact, and
the audit found no indication of significant adverse impact to the environment as a result
of USAID-implemented activities for the projects reviewed. The audit reviewed 20
projects valued at $150 million implemented under five bilateral assistance agreements
that included activities with potential for adverse environmental impact. The audit found
that the mission had performed the required environmental reviews and developed
mitigating measures where required to minimize the risk of potentially adverse effects.
USAID/Egypt’s environmental compliance procedures are summarized in Appendixes V
and VI.

USAID regulations require compliance with environmental procedures; however, the
internal processes for mitigation and monitoring are left to the missions and strategic
objective teams, and each team is expected to develop its own processes or system. At
USAID/Egypt, 16 of the 20 projects reviewed had environmental determinations
requiring mitigation and monitoring. The projects reviewed included 12 small-scale
infrastructure projects such as water and wastewater treatment plants, 1 agricultural
project to develop a tomato-processing industry, 1 community development project,
1 water resource management project, and 1 avian influenza project.

Small-Scale Infrastructure Projects – USAID/Egypt contracted the services of Camp
Dresser & McKee (CDM International, Inc.) to provide engineering design and
construction management services for the mission’s small-scale infrastructure projects.
The engineering firm prepared the Environmental Assessments, conducted scoping
sessions, and incorporated USAID’s environmental compliance requirements into the bid
documents and the projects’ technical specifications.        Although USAID/Egypt is
responsible for monitoring environmental compliance for the 12 small-scale
infrastructure projects reviewed, CDM also provided project management and monitored
compliance with environmental requirements for 6 of the projects.             Staff in
USAID/Egypt’s Office of Productive Sector Development managed the remaining six
projects, which use simpler technologies—for example, water treatment plants that use
slow sand filtration.

The 12 small-scale infrastructure projects are implemented through a Fixed-Amount
Reimbursement Agreements with local Egyptian water and wastewater companies.
Under the agreements, USAID agrees to reimburse the companies a fixed amount for
the costs associated with performing the project tasks, in addition to providing training
and technical assistance. The water and wastewater companies are responsible for
contracting out projects to qualified construction and engineering firms and for
supervising construction. USAID/Egypt’s role is to ensure the work complies with its
requirements and is completed prior to reimbursement. If the work does not meet
USAID’s requirements, or if the work is not completed, the company in question does not
receive reimbursement.

USAID/Egypt’s project managers monitor the environmental requirements for the
projects in the portfolio by visiting project sites at least once a month during the
construction phase, inspecting completed stages of work, and attending the monthly
construction meetings with implementing partners—its engineering firm, CDM,


                                                                                        4
,representatives from Egyptian water and wastewater companies, and the local Egyptian
contractors and engineers.       The mission environmental officer and regional
environmental advisor sometimes accompany the project managers on site visits.

Environmental issues that require mitigation include spill prevention, control, and
cleanup; dust and noise abatement; undermining of, or effects of excavation existing
structures; and decommissioning, namely the removal of equipment and facility
structures from a construction site and the subsequent re-contouring of the land to
prevent soil erosion. Examples of some of the actions implemented are discussed
below:

     For two wastewater collection systems in Fayoum Governorate, the Initial
      Environmental Examination determined that the activities—installing collection
      basins, laying sewer pipe, and building water treatment plants—could have an
      adverse impact on the surrounding environment. The Code of Federal Regulations
      (22 CFR 216.2(d)(1)(xi)) includes potable water and sewage projects (other than
      small-scale projects) in a class of actions that have been determined generally to
      have a significant effect on the environment and that require an Environmental
      Assessment or Environmental Impact Statement, as appropriate. Because of this
      determination, USAID/Egypt conducted a scoping session 4 and invited members of
      the local community to discuss the project and share their concerns. USAID/Egypt
      prepared an Environmental Assessment to consider the environmental impacts of
      the proposed activities in the villages where the plants were to be built. The
      Environmental Assessment listed items to be monitored in the environmental
      management of the project. For example, one of USAID/Egypt’s mitigating
      measures requires the contractor to take measurements during the construction to
      ensure that buildings along the sewer installation route are not settling and monitor
      any change in measurements.

     The Environmental Assessment for the Luxor Groundwater Lowering of Antiquities
      on the West Bank project included mitigation measures for the undermining of
      existing structures. At Medinet Habu Temple, the foundations of all structures near
      excavated areas were assessed to determine structural stability and potential
      impacts associated with undermining. The project contractor placed monitoring
      points throughout the temple to measure any movement resulting from the
      construction project. (See the photo on the following page.) The monitoring points
      are checked daily by the project contractor’s engineer, and the data are reported to
      the Supreme Council of Antiquities once a month.




4
    Scoping is an environmental assessment activity that identifies attributes of the environment
    about which there are concerns and provides a plan that enables the Environmental
    Assessment team to focus on those attributes.


                                                                                               5
A monitoring point is visible on the column at right in Medinet Habu Temple, Luxor, Egypt.
(Photo by OIG, March 2010)

Agriculture Project – Under a public-private partnership, the Heinz Group and
USAID/Egypt designed a Global Development Alliance 5 project to develop a tomato-
processing industry in Egypt. Based on USAID/Egypt’s environmental review of project
activities, the mission made a negative determination with conditions that required
implementation of mitigation and monitoring measures. Mission officials required the
development of a Pesticide Evaluation Report and Safe Use Action Plan. USAID/Egypt
hired a consultant who collaborated with the regional environmental advisor to develop
the plan, which recommended mitigations for the safe use of pesticides. The project is
designed to promote soil sustainability and good agricultural practices resulting in
decreased use of fertilizers and pesticides. Additionally, the project is designed to
conform to Heinz Good Agricultural Practices (HeinzGap) standards, which specify
grower responsibilities for fertilizer and pesticide use, validation testing of finished
goods, and product traceability. The project also includes pesticide safety training as a
risk-mitigating activity, and testing for residuals is conducted by an independent lab.

Community Development Project – The Sustainable Natural Resource Management
and Production–Sinai project is in the development stage. The mission completed the
required environmental review, which determined that the activities could adversely
affect the environment. One activity, the construction of infrastructure facilities,
necessitated the completion of an Environmental Assessment according to USAID’s
environmental procedures. The nature of the proposed activities and the level of detail
available about them led USAID/Egypt to adopt a Programmatic Environmental


5
 Global Development Alliances (GDAs) are USAID's commitment to change implementation of
development assistance. GDAs mobilize the ideas, efforts and resources of governments,
businesses and civil society to stimulate economic growth, develop businesses and workforces,
address health and environmental issues, and expand access to education and technology.



                                                                                           6
Assessment approach for meeting 22 CFR 216 requirements and ensuring the
environmental soundness of the project activities. The Programmatic Environmental
Assessment has been drafted and is awaiting approval by the bureau environmental
officer.

Avian Influenza Project – The Strengthening Avian Influenza Detection and Response
(SAIDR) Project included activities designed to strengthen planning for avian influenza
and pandemic preparedness at the national, governorate, and local government levels;
strengthen local communities’ capacity for prevention, surveillance, and response; and
implement risk awareness communications for avian influenza target populations, the
private sector, the media, and government officials. The project received a negative
determination with conditions for activities that involved monitoring and surveillance,
disinfection, vaccination, culling and disposal of diseased birds or livestock, and
provision and training in the use of personal protective equipment. The conditions to be
implemented, such as the provision of personal protective equipment and disinfection
procedures, were listed in the initial environmental examination.

Although USAID/Egypt has taken steps to develop mitigating measures to minimize
adverse effects of its activities on the environment, USAID/Egypt should strengthen its
management controls over its environmental procedures by—

     Increasing the monitoring of specified environmental mitigations for its avian
      influenza activities.

     Documenting processes to verify that required environmental language is included in
      solicitations and awards.

     Formally designating a mission environmental officer.


USAID/Egypt Should
Improve Monitoring of
Environmental Mitigations in
Its Avian Influenza Activities
ADS 204.2.c, “Environmental Procedures–Primary Responsibilities,” states that activity
managers and agreement or contracting officer’s technical representatives
(AOTRs/COTRs) 6 are responsible for monitoring all programs, projects, activities, and
amendments for compliance with USAID’s environmental requirements. Further, ADS
204.3.4, “Strategic Objective and Program Support Objective Teams (Teams), Activity
Managers and Agreement or Contracting Officer’s Technical Representatives
(AOTR/COTR),” states that each team and the activity manager or AOTR/COTR must
plan how they will meet the environmental requirements for each activity implemented.
They must actively monitor ongoing activities for compliance with approved Initial

6
    The current version of ADS 204 (revised February 19, 2009) uses the title cognizant technical
    officer (CTO). In accordance with USAID policy (USAID General Notice, January 23, 2009,
    Revisions to Cognizant Technical Officer Policy), the title used in this report for ADS 204
    citations is agreement officer’s technical representative (AOTR) or contracting officer’s technical
    representative (COTR).


                                                                                                     7
Environmental Examination, Categorical Exclusion, Environmental Assessment,
Programmatic Environmental Assessment, or Environmental Impact Statement
recommendations, conditionalities, or mitigative measures. They also must modify or
end activities that are not in compliance.

ADS 303.2.f, “Grants and Cooperative Agreements to Non-Governmental
Organizations—Primary Responsibilities,” states that the AOTR/COTR is responsible for
monitoring and evaluating the recipient and its performance on grants and cooperative
agreements. Monitoring and evaluation responsibilities include conducting site visits to
ensure that all mitigative environmental measures in the award are implemented
throughout the life of the award. In addition, as a best practice, USAID’s Mission
Environmental Officer Handbook 7 states that the AOTR/COTR or activity manager is
responsible for ensuring compliance with Initial Environmental Examination and
Environmental Assessment conditions. Monitoring is listed as including field visits to
assess Environmental Mitigation and Monitoring Plan implementation and the adequacy
of the mitigation measures themselves.

The SAIDR project includes two implementation letters—a cooperative agreement and a
Public International Organization grant awarded from Washington, D.C. The two
implementation letters with the Government of Egypt cover the period from October 1,
2007, through September 30, 2010. and award funding of $2.8 million and $7.5 million
respectively.

Project activities listed in the Initial Environmental Examination that received a negative
determination with conditions included (1) disinfection of workers and equipment, (2)
animal and human vaccination, and (3) culling and disposal of diseased livestock and
manure. The conditions were listed in the Initial Environmental Examination. For
example, for the activity culling of diseased livestock and disposal of diseased livestock,
wild birds, and their manure, the conditions required (1) performing short-term training
on handling and proper disposal options, (2) producing training materials, quick
reference guides, posters, and flyers, and (3) procuring protective clothing for ministry
staff and others that regularly handle and dispose of manure and diseased birds. The
Initial Environmental Examination stipulated that implementing partners were to develop
action plan matrixes that documented assignments of roles and responsibilities,
established deadlines, and signature verifications by the Chief of Party or other
responsible authority. The Initial Environmental Examination used the term “action plan”
rather than Environmental Mitigation and Monitoring Plan (EMMP) suggested by best
practices, but included elements similar to those found in an EMMP.

Although the conditions listed above were included in project activities, USAID/Egypt did
not have the required action plans, and the activity manager and the AOTR have not
performed site visits to ensure that the measures identified in the Initial Environmental
Examination are taking place. USAID/Egypt’s Office of Health and Population relied on
the implementer for monitoring and evaluation and did not monitor the mitigating
measures stipulated in the SAIDR activities’ Initial Environmental Examination beyond
reviewing the implementer’s quarterly progress reports. The quarterly reports reported
on environmental issues only in the context of project activities such as training in the

7
  Chapter 3, Section 4, “Responsibilities – IEE/EA Conditions Are Implemented & Implementation
Is Monitored” (www.encapafrica.org/meoentry.htm).



                                                                                            8
use of personal protective equipment.

Management did not devote adequate attention to monitoring the environmental
mitigating factors identified in the Initial Environmental Examination. The AOTR for the
Public International Organization grant is in the Global Health Bureau in Washington,
whereas the activity manager for the avian influenza activities and the AOTR for the
implementation letters are at USAID/Egypt. Staff in USAID/Egypt’s Office of Health and
Population was not aware that the activity manager is also responsible for monitoring the
environmental mitigations for activities under the grant. The activity manager and the
AOTR for the implementation letters were not fully aware of the requirements stipulated
in ADS 204 regarding monitoring compliance with specific conditions in the Initial
Environmental Examination.

By relying solely on the implementer’s reports to determine compliance with Initial
Environmental Examination conditions without verifying that mitigating measures were
implemented, USAID/Egypt cannot be sure that the implementing partners are
complying with the environmental requirements. Because the avian influenza virus can
be spread when clothing and equipment are not properly disinfected, or medical waste is
not properly disposed of, the audit makes the following recommendations to assist
USAID/Egypt in strengthening its monitoring of avian influenza activities:

       Recommendation 1.          We recommend that USAID/Egypt include
       environmental responsibilities for avian influenza activities in the work
       objectives of staff in the mission’s Office of Health and Population to
       ensure staff awareness of responsibilities.

       Recommendation 2. We recommend that USAID/Egypt obtain and
       review Environmental Mitigation and Monitoring Plans from its
       implementing partners to verify that they conduct actions required by the
       Initial Environmental Examination.


USAID/Egypt Should Have a
Process to Verify That
Environmental Requirements
Are Included in Its Solicitations
USAID guidance requires that activity managers ensure that Environmental Assessment
requirements are met during the design process and are incorporated into solicitation
and award documents so that sufficient resources are allocated. ADS 204.3.4.a.6
requires incorporating environmental factors and mitigating measures identified in Initial
Examinations and Environmental Assessments in the design and implementation
instruments for programs, projects, activities or amendments. ADS 204.5.2, “Optional
Language for Use in Solicitations and Awards,” provides recommended language for
incorporating environmental conditions and mitigating measures in various types of
procurement actions.

USAID/Egypt has not ensured that Initial Environmental Examination conditions are
included in solicitation documents and implementation instruments.         Specifically,
USAID/Egypt has not clearly assigned responsibility to a specific mission office or staff


                                                                                        9
to ensure that environmental factors and mitigating measures identified in Initial
Environmental Examinations are included in solicitation documents and implementation
instruments. A procurement specialist responsible for nine of the awards and contracts
reviewed explained that the Procurement Office looks to the Modified Acquisition &
Assistance Request Document (MAARD) for guidance in preparing solicitation
documents that would include conditions identified in the Initial Environmental
Examination.


Preparers of environmental documentation in the various technical offices are
responsible for including any required mitigating measures in statements of work to be
included in solicitations and awards. This information is incorporated in the MAARD
package, which the Procurement Office uses to prepare solicitations. After the mission
signs a contractual agreement with an implementing partner under a bilateral
agreement, USAID/Egypt refers to the agreement as a sub-obligation. Accordingly,
USAID/Egypt uses a preobligation checklist at the subobligation level. The preparer is
also required to complete a preobligation checklist, 8 which includes information about
whether an Initial Environmental Examination was completed but not the environmental
determination, which would indicate the environmental language appropriate for the
award. The Program Office clears the MAARD package before it goes to the
Procurement Office.

For the activities reviewed, USAID/Egypt did not always indicate in its awards whether a
project had an environmental determination requiring mitigation and monitoring. The 20
projects reviewed included 23 implementing agreements. Two of the implementing
agreements had environmental determinations that required mitigation and monitoring of
conditions, and the solicitation documents did not disclose that. In one case, the
requirements were to be applied to Global Development Alliances that had not been
developed, and in the other, the environmental requirement for the development of a
Pesticide Evaluation Report and Safe Use Action Plan was awarded separately from the
original award. Although the preobligation checklist the preparer uses ensures that an
Initial Environmental Examination has been performed, it does not include instructions to
verify the environmental determination in the Initial Environmental Examination.

By not including environmental compliance requirements in the solicitation documents,
USAID is not informing potential bidders of their responsibilities to mitigate potential
environmental impact documented in either an Initial Environmental Examination or an
Environmental Assessment. To address these issues, the audit makes the following
recommendations:

       Recommendation 3.          We recommend that USAID/Egypt develop
       procedures that clearly indicate the level of environmental determinations
       of Initial Environmental Examinations in subobligation checklists.

       Recommendation 4. We recommend that USAID/Egypt develop and
       implement procedures to verify that Initial Environmental Examination
       conditions are included in solicitation documents.

8
  When the mission signs an agreement with an implementing partner other than the primary
partner (in this case, CDR), USAID/Egypt refers to the agreement as a subobligation. Before
signing such agreements, USAID/Egypt uses a preobligation checklist.


                                                                                        10
USAID/Egypt Should
Formally Designate a
Mission Environmental Officer
ADS 204.3.5, “Mission Environmental Officer and Regional Environmental Advisor.”
states that each Mission Director is encouraged to appoint a mission environmental
officer in writing. The primary responsibilities and accountabilities for a mission’s
environmental activities are with the AOTR/COTR and strategic objective teams. The
mission environmental officer is a member of each mission strategic objective team, and
advises staff about specific needs to address environmental compliance.              At
USAID/Egypt, Initial Environmental Examinations are prepared by the activity manager
or AOTR/COTR with guidance from the acting mission environmental officer. The acting
mission environmental officer clears the Initial Environmental Examination and then
forwards it to the strategic objective team leader and deputy mission director for
approval. The Initial Environmental Examination is then sent to USAID/Washington’s
Middle East Bureau Environmental Officer for approval through the regional
environmental advisor.

As of May 2010, USAID/Egypt had not formally designated the staff person acting as the
mission environmental officer. Until early 2009, the mission environmental officer duties
were assigned to a staff member in USAID/Egypt’s Office of Productive Sector
Development. After that staff member left the mission in February 2009, USAID/Egypt
did not fill the vacancy or redelegate the environmental duties. .

Mission officials attributed the delay in designating a mission environmental officer to
USAID/Egypt’s budget transition, possible participation in Global Climate Change
programs, the lack of environmental program funding, and a need to define the new
regional environmental advisor’s role in the mission. Without the funding to hire
additional staff for environmental programs in the Office of Productive Sector
Development, the deputy mission environmental officer became the de facto acting
mission environmental officer even though the deputy did not have a designation memo.

Since a mission environmental officer assists and advises numerous staff such as
activity managers and AOTRs/COTRs in preparing environmental documentation for
new activities and monitoring plans for ongoing activities, the mission environmental
officer serves to coordinate the preparation of mission environmental documents. In
addition, the AOTR/COTR relies on the advice and guidance of the mission
environmental officer. As a result of the audit and a proposed recommendation, the
mission designated a mission environmental officer in writing, effective June 1, 2010.

Although USAID/Egypt has not documented any negative effects from its lack of a
designated mission environmental officer, ADS states that without an appointed mission
environmental officer, the Mission Director assumes these additional duties and
increased responsibilities. Without a written designation letter, USAID/Egypt’s acting
mission environmental officer does not have the proper authority to review and clear
mission environmental documents on the Mission Director’s behalf. Moreover, a written
designation memo would confer on the deputy mission environmental officer the
authority of the position and clearly list its responsibilities and duties. Consequently, the


                                                                                          11
audit makes the following recommendation:

      Recommendation 5. We recommend that USAID/Egypt designate a
      mission environmental officer in writing.




                                                                    12
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Egypt agreed with the five recommendations included in the draft report. The
Office of Inspector General, having reviewed the mission’s response to the draft report,
has determined that management decisions have been reached and final actions taken
on all five recommendations.

Regarding Recommendation 1, USAID/Egypt modified the work objectives of the Office
of Health and Population’s project management specialist to add the responsibility of
monitoring specified environmental mitigation measures for the current avian influenza
activities. Under the modified work objectives, the project management specialist will be
responsible for ensuring that all mitigating measures identified in the Initial
Environmental Examination in the current avian influenza awards are implemented
throughout the life of the award by conducting and documenting field and site visits. The
mission submitted the modified work objectives to the Executive Office, Personnel, for
approval. On the basis of the mission’s response, RIG/Cairo considers that a
management decision has been reached and final action taken on Recommendation 1.

In response to Recommendation 2, the mission stated that because the focus of this
recommendation is the Avian Influenza activities, corrective action was taken by the
Office of Health and Population. The Office of Health and Population incorporated an
environmental compliance requirement in all new award documents whereby the
contractor must prepare an environmental mitigation and monitoring plan (EMMP) or a
project mitigation and monitoring plan (M&M) describing how the contractor will
implement all Initial Environmental Examination measures. The EMMP or M&M shall be
integrated into the initial work plan and subsequent annual work plans.             The
environmental compliance provision requires the contractor to seek USAID written
approval for new activities outside the scope of the approved Regulation 216
environmental documentation; otherwise, USAID reserves the right to halt activities until
an amendment to the documentation is submitted and written approval received from
USAID.     On the basis of the mission’s response, RIG/Cairo considers that a
management decision has been reached and final action taken on Recommendation 2.

Regarding Recommendation 3, USAID/Egypt’s Program Office developed a
subobligation checklist to be incorporated in each subobligation in June 2010. The
checklist includes a section that clearly indicates the environmental determinations of
Initial Environmental Examinations for the activities described in the solicitation or award.
The checklist requires the contracting or agreement officer’s technical representative to
consult with the mission environmental officer if the environmental determination is other
than categorical exclusion or unconditional negative determination. In view of the
mission’s response, RIG/Cairo considers that a management decision has been reached
and final action taken on Recommendation 3.

In response to Recommendation 4, the mission stated that the subobligation checklist
mentioned above will be completed by the Program Office backstops and the mission
environmental officer in close consultation with the contracting/agreement officer’s



                                                                                          13
technical representatives prior to any subobligation. The Program Office will ensure that
all preobligation and subobligation documentation is completed and included in any
Modified Acquisition and Assistance Request Document (MAARD) or Global Acquisition
and Assistance System (GLAAS) requisition. On the basis of the mission’s response,
RIG/Cairo considers that a management decision has been reached and final action
taken on Recommendation 4.

Regarding Recommendation 5, the Mission has officially designated a Program Office
Foreign Service National as mission environmental officer effective June 1, 2010. As a
result, RIG/Cairo considers that a management decision has been reached and final
action taken on Recommendation 5.




                                                                                      14
                                                                              APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Cairo conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions in accordance with our audit objective.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

The audit objective was to determine whether USAID/Egypt was achieving its goals and
objectives to mitigate environmental impact.     Audit fieldwork was conducted at
USAID/Egypt from February 18 to May 23, 2010. The audit covered the period from
October 1, 2007, to September 30, 2009; however, we considered it appropriate to
incorporate information pertaining to project design and initial environmental
documentation for some projects that were completed prior to the period under audit.

In planning and performing the audit, we assessed USAID/Egypt’s controls over its
environmental procedures. Specifically, we reviewed (1) environmental documents,
including Initial Environmental Examinations, scoping statements, and Environmental
Assessments; (2) program documents, including Activity Approval Documents;
(3) procurement, contract, and agreement documents; (4) project documents such as
work plans, technical specifications, and implementer reports; and (5) project monitoring
by USAID/Egypt’s agreement officer’s technical representatives/contracting officer’s
technical representatives (AOTRs/COTRs) and activity managers. We interviewed key
USAID/Egypt staff, contractors, and implementing partners. We conducted fieldwork at
USAID/Egypt and implementing partners’ offices in Cairo, Egypt, and also in the
Governorates of Luxor, Daqahliya, Fayoum, and Minia, where the audit team met with
implementing partners and visited project sites.

As of September 2009, USAID/Egypt’s project portfolio included 19 active assistance
agreements. Six agreements were closing, eight had environmental reviews that found
the activities posed no potential risk to the environment, and five included activities that
required mitigation and monitoring. We reviewed 20 projects under the five agreements
to answer the audit objective. The amount awarded for the projects reviewed was
approximately $150 million, and obligations and disbursements were approximately
$81 million and $25 million, respectively, as of September 30, 2009.


Methodology
To answer the audit objective, we interviewed USAID/Egypt staff from the Program
Office and the Offices of Procurement, Productive Sector Development, and Health and
Population. We also interviewed contractor and implementing partner staff. We
obtained an understanding of the overall objectives and scope of activities subject to the
requirements of Title 22 of the Code of Federal Regulations, Part 216 (22 CFR 216), as
well as of the roles and responsibilities and the implementation processes followed at



                                                                                         15
                                                                             APPENDIX I


USAID/Egypt.
We conducted a review of the projects in the mission’s portfolio to assess whether Initial
Environmental Examinations required by 22 CFR 216 were being performed. We
judgmentally selected five assistance agreements for further review based on the nature
of the activities and their potential for adverse environmental impact. Under the five
assistance agreements, we reviewed 20 projects valued at $150 million—four
agreements managed by the Office of Productive Sector Development and one project
managed by the Office of Health and Population. The results of a judgmental sample
cannot be projected to the population as a whole.

We met with the AOTRs/COTRs and activity managers of the projects reviewed and
other mission officials to understand how environmental requirements are included in the
project design, and how USAID planned to monitor and report on its compliance with
environmental regulations and Agency and mission guidance. We reviewed program,
procurement, and environmental documentation at the mission and project level We
reviewed environmental documentation including Initial Environmental Examinations and
Approvals, Scoping Statements, Pesticide Evaluation Report and Safe Use Action Plans,
and Environmental Assessments. Project and procurement documents reviewed
included Activity Approval Documents, implementing agreements, requests for
proposals/applications, implementers’ proposals, bills of quantity, general conditions and
technical specifications for construction projects, implementers’ work plans, progress
reports, and other supporting documentation for environmental mitigations. We attended
a USAID workshop for regional staff and implementing partners that covered life-of-
project environmental compliance and best practices for environmentally sound design
and management.

We met with implementing partners to discuss environmental mitigations, how they are
incorporated in the projects, how they are monitored, and whether any unintended
adverse environmental impacts have resulted from project implementation. We
confirmed through interviews with implementing partners that there have been no
adverse environmental impacts resulting from USAID-implemented activities. Through
project site visits, we observed mitigations listed in the technical specifications; held
discussions with project site contractors, engineers, and water and wastewater company
officials; and reviewed supporting documentation provided by the water and wastewater
companies. During the site visits, we noted no significant adverse impacts.




                                                                                       16
                                                                          APPENDIX II



MANAGEMENT COMMENTS


MANAGEMENT COMMENTS

MEMORANDUM

Date          :      August 09, 2010

To            :      Jacqueline Bell, Regional Inspector General/Cairo

Through       :      Thomas Delaney, A/ Mission Director /s/

From          :      Robert Lopez, A/OD/Program /s/

Subject       :      Mission Response to Draft Audit of USAID/Egypt’s
                     Environmental Compliance

USAID/Egypt has reviewed the draft Audit Report No. 6-263-10-XXX-P dated
July 20, 2010 and following is the Mission response to the Audit report.

The Mission would like to thank the staff of the RIG/A Office for the time and
effort that they put into the audit of USAID/Egypt’s Environmental Compliance as
part of the worldwide audit. The RIG team made an effort to understand the
environmental requirements, processes, procedures, and their application in the
20 projects that were included in the audit.

The Mission appreciates the opportunity to provide written comments regarding
the subject report. We are pleased with the audit team’s conclusion that
“USAID/Egypt is achieving its goals and objectives related to mitigating
environmental impacts,” and that the audit team did not find any significant
adverse impacts as a direct result of USAID activities.

Below we provide USAID/Egypt’s position on each recommendation.

Recommendation No. 1
We recommend that USAID/Egypt include environmental responsibilities for
avian influenza activities in health office staff work objectives to ensure staff
awareness of responsibilities.


                                                                                    17
                                                                    APPENDIX II


Mission Response to Recommendation No.1

USAID/Egypt agrees with this recommendation and has modified the work
objectives of the Office of Health and Population’s Project Management
Specialist to add the responsibility of monitoring specified environmental
mitigation conditions for the current avian influenza activities. The Project
Management Specialist will be responsible for ensuring that all mitigative
environmental measures and conditions identified in the Initial Environmental
Examination in the current avian influenza awards are in place and implemented
throughout the life of the award by conducting and documenting field and site
visits.

The modified work objectives have been submitted to EXO/PER and are included
as Attachment I.

In view of the above, the Mission believes that Recommendation No.1 has been
addressed and requests RIG/Cairo to close the recommendation upon final
report issuance.

Recommendation No. 2

We recommend that USAID/Egypt obtain, review, and verify Environmental
Mitigation and Monitoring Plans from its implementers to ensure actions required
by the Initial Environmental Examination are conducted.

Mission Response to Recommendation No.2

USAID/Egypt agrees with this recommendation. The findings and analysis
preceding this recommendation focus on Avian Influenza activities, and the
Mission response is focused on the Avian Influenza activities accordingly.

The Office of Health and Population has already designed and incorporated an
Environmental Compliance requirement into all new potential award
documents that states that the Contractor shall prepare an environmental
mitigation and monitoring plan (EMMP) or a project mitigation and monitoring
(M&M) plan, describing how the Contractor will, in specific terms, implement all
IEE conditions that apply to proposed project activities within the scope of the
award. The EMMP or M&M Plan shall be integrated into the initial work plan and
subsequent Annual Work Plans, with any necessary adjustments to activity
implementation in order to minimize adverse impacts to the environment. As an
example the Office of Health and Population included a section on environmental
compliance on pages 27-28 of the scope of work of a new task order under the
Rural and Agricultural Incomes with a Sustainable Environment (RAISE PLUS)
IQC that will mainly provide technical assistance to improve bio-security and
good farming practices (GFP) of commercial farms within high-risk districts.
The section states:



                                                                              18
                                                                          APPENDIX II


“The Contractor shall be responsible for implementing all IEE conditions
pertaining to activities to be funded under this contract. As part of its initial Work
Plan, and all Annual Work Plans thereafter, the Contractor, in collaboration with
the USAID Cognizant Technical Officer and Mission Environmental Officer or
Bureau Environmental Officer, as appropriate, shall review all ongoing and
planned activities under this Contract to determine if they are within the scope of
the approved Regulation 216 environmental documentation.

If the Contractor plans any new activities outside the scope of the approved
Regulation 216 environmental documentation, it shall prepare an amendment to
the documentation for USAID review and approval. No such new activities shall
be undertaken prior to receiving written USAID approval of environmental
documentation amendments.

Any ongoing activities found to be outside of the scope of the approved
Regulation 216 environmental documentation shall be halted until an amendment
to the documentation is submitted and written approval is received from USAID.

The Contractor shall prepare an environmental mitigation and monitoring plan
(EMMP) or a project mitigation and monitoring (M&M) plan, describing how the
Contractor will, in specific terms, implement all IEE conditions that apply to
proposed project activities within the scope of the award. The EMMP or M&M
Plan shall be integrated into the initial work plan and subsequent Annual Work
Plans, with any necessary adjustments to activity implementation in order to
minimize adverse impacts to the environment.”

The SOW for the task order is in attachment II.

In view of the above, the Mission believes that Recommendation No.2 has been
addressed and requests RIG/Cairo to close the recommendation upon final
report issuance.

Recommendation No. 3

We recommend that USAID/Egypt develop procedures that clearly indicate the
level of environmental determinations of Initial Environmental Examinations in
Sub-Obligation Checklists.

Mission Response to Recommendation No. 3

USAID/Egypt accepts and agrees with the recommendation. The Sub-obligation
checklist that was developed by the Program Office in June 2010, and is
incorporated as required documentation with each sub-obligation includes a
section that clearly indicates the level of environmental determinations of Initial
Environmental Examinations (IEE) and threshold decision for the activities
described in the solicitation or award. The checklist also states that if the



                                                                                    19
                                                                     APPENDIX II


threshold decision is other than Categorical Exclusion or Unconditional Negative
Determination, the COTR/AOTR is required to consult with the Mission
Environmental Officer (MEO). The Sub-obligation checklist is included as
Attachment III.

In view of the above, the Mission believes that Recommendation No.3 has been
addressed and requests RIG/Cairo to close the recommendation upon final
report issuance.

Recommendation No. 4

We recommend that USAID/Egypt develop and implement procedures to verify
that Initial Environmental Examination conditions are included in solicitation
documentation.

Mission response to recommendation No. 4

USAID/Egypt accepts and agrees with the recommendation. The sub-obligation
checklist mentioned above will be completed by the Program Office backstops
and the MEO in close consultation with the Technical Office AOTR/COTR prior to
any sub-obligation. During these consultations, the MEO will verify that the IEE
determination and the threshold decision were adequately reviewed and
considered by the AOTR/COTR. The MEO will also review and ensure that
appropriate mitigation and monitoring measures are included in any solicitation
documents where the determination is either Negative Determination with
Conditions or a Positive Determination. As a general matter, the Program Office
will closely coordinate with the AOTR/COTR and Procurement Office to ensure
that all pre-obligation and sub-obligation documentation is complete, including
MEO reviewed solicitation documents as needed, and included at the initiation
any MAARD or GLAAS requisition.

In view of the above, the Mission believes that Recommendation No.4 has been
addressed and requests RIG/Cairo to close the recommendation upon final
report issuance.

Recommendation No. 5

We recommend that USAID/Egypt formally designate a Mission Environmental
Officer in writing.

Mission response to Recommendation No. 5

USAID/Egypt accepts and agrees with this recommendation. USAID/Egypt has
already designated a Program Office Foreign Service national as Mission
Environmental Officer (MEO) effective June 1, 2010. The designated MEO had
completed two Agency environmental compliance training courses as well as a



                                                                                 20
                                                                 APPENDIX II


Pesticide Evaluation Action Plan (PERSUAP) course. Attached is the MEO
designation letter as Attachment IV.

In view of the above, the Mission believes that Recommendation No.5 has been
addressed and requests RIG/Cairo to close the recommendation upon final
report issuance.




                                                                           21
                                                       APPENDIX IIAPPENDIX APPENDIX III


                                       Projects Reviewed
                                                            Contract/             Most Significant
                                                          Agreement               Environmental
                      Project/Award                         Amount 9               Determination
Agricultural Exports and Rural Incomes Assistance Agreement
Global Development Alliance–Heinz Group                 $ 6,999,999           Negative Determination
                                                                              with Conditions
Agricultural Technical Schools                          $ 4,863,636           Categorical Exclusion
Livelihood and Income from the Environment Assistance Agreement
Integrated Water Resource Management II                 $ 9,951,642           Negative Determination
                                                                              with Conditions
Sustainable Natural Resource Management and                 $ 8,978,460       Positive Determination
Production–Sinai
Egypt Utilities Management Assistance Agreement
Water Policy and Regulatory Reform                          $ 15,084,009      Categorical Exclusion
Water and Wastewater Sector Support                         $ 19,313,728      Categorical Exclusion
Wastewater Collection System–Hawarat El-Maqta South         $ 1,938,000       Positive Determination
Village–Fayoum
Wastewater Collection System-Hawarat El-Maqta North         $ 3,378,000       Positive Determination
Village–Fayoum
Wastewater Collection System–Kasr El Jebaly Village–        $ 4,056,000       Positive Determination
Fayoum
Slow Sand Filter Water Treatment Plant in Bertebat          $ 2,800,000       Negative Determination
Maghagha–Minia                                                                with Conditions
Slow Sand Filter Water Treatment Plant in Beni Hassan       $ 2,150,000       Negative Determination
El Ashraf–Minia                                                               with Conditions
Wastewater Collection System–Abeyouha Village–Minia         $ 2,450,000       Negative Determination
                                                                              with Conditions
Secondary Cities Assistance Agreement
Luxor West Bank Antiquities Groundwater Control         $ 9,000,000        Positive Determination
Small Scale Infrastructure Engineering and Construction $ 10,043,667       Categorical Exclusion
Management
Mehalet Engak Wastewater Treatment Plant–Daqahliya      $ 4,930,000        Positive Determination
Telbana Wastewater Treatment Plant–Daqahliya            $ 5,180,000        Positive Determination
El Samman Village Wastewater System-Luxor               $ 4,290,590        Positive Determination
Rehabilitation of Luxor Trickling Filter Wastewater     $ 3,708,270        Positive Determination
Treatment Plant
El Mounira Wastewater System and Wastewater             $ 7,120,607        Positive Determination
Treatment Plant–New Valley
Healthier Planned Families Assistance Agreement – Strengthening Avian Influenza Detection and
Response (SAIDR) Project 10
Epidemiology and Disease Surveillance Unit –            $ 7,500,000        Negative Determination
Implementation Letter                                                      with Conditions
General Organization of Veterinary Services –           $ 2,800,000        Negative Determination
Implementation Letter                                                      with Conditions
United Nations Food and Agricultural Organization –     $ 9,000,000        Negative Determination
Strengthening Avian Influenza Detection and Response                       with Conditions
Johns Hopkins Communications for Healthy Living         $ 4,500,000        Categorical Exclusion
Project
  Total                                                 $150,036,608



9
    The amounts of the contracts and agreements reviewed were not audited.
10
     The SAIDR project is defined as one project with multiple implementing mechanisms.


                                                                                          22
                                                                        APPENDIX IIAPPENDIX APPENDIX IV


                              Environmental Determinations for Projects Reviewed
Assistance               Project              Initial      Environmental Determination                        Requirements
Agreement                                    Environ
                                             -mental    Categorical   Negative     Positive   Conditions in     Scoping     Environ-
                                              Exam-     Exclusion     Determin-    Deter-     IEE to be         Statement   mental
                                             ination                  ation with   mination   Implemented                   Assessment
                                               (IEE)                  Conditions

Agricultural   Global Development
                                                                                                                         
Exports and    Alliance–Heinz Group
Rural          Agricultural Technical           
Incomes        Schools                                                                                                     
Livelihood     Integrated Water Resource
and Income     Management II                                                                                             
from the                                        
Environ-       Sustainable Natural
ment           Resource Management                                                                                      
               and Production–Sinai
Egypt          Water Policy and
Utilities      Regulatory Reform                                                                                           
Manage-        Water and Wastewater             
ment           Sector Support                                                                                              
               Wastewater Collection
               System–Hawarat El-Maqta                                                                                   
               South Village–Fayoum
               Wastewater Collection
               System–Hawarat El-Maqta                                                                                 
               North Village–Fayoum
               Wastewater Collection
               System–Kasr El Jebaly                                                                                     
               Village–Fayoum
               Slow Sand Filter Water
               Treatment Plant in                                                                                        
               Bertebat Maghagha–Minia
                                                
               Slow Sand Filter Water
               Treatment Plant in Beni                                                                                   
               Hassan El Ashraf
               Wastewater Collection
               System-Abeyouha Village–                                                                                
               Minia
Secondary      Luxor West Bank
Cities         Antiquities Groundwater                                                                                
               Control
               Small Scale Infrastructure
               Engineering and                                                                                           
               Construction Management
               Mehalet Engak
               Wastewater Treatment                                                                                     
               Plant–Daqahliya
               Telbana Wastewater
                                                                                                                        
               Treatment Plant–Daqahliya
               El Samman Village
               Wastewater System–Luxor                                                                                  
                                                
               Rehabilitation of Luxor
               Trickling Filter Wastewater                                                                              
               Treatment Plant
               El Mounira Wastewater
               System and Wastewater
               Treatment Plant–New
                                                                                                                        
               Valley
Healthier      SAIDR Project
Planned                                                                                                                
Families




                                                                                                                    23
                                                                                                                                          APPENDIX V




                                          USAID/Egypt Environmental Compliance
                                                      Procedures

                                                   USAID is a           Categorical

                                                   minor Donor          Exclusion

                                                                             Umbrella Initial
                                               The activity is         Environmental Examination
                                               not yet clearly
                                                 designed                Deferral
               Analyze            Don’t
Activity    Environmental         Know             1.   Education & Training
Concep          Effects                            2.   Research or Controlled experiments to
tualizati     Does this                                 small areas
             activity have        No
  on &                                             3.   Analyses, studies, & workshops
Design       any potential                         4.   Transfer of documents or information
              Impact on                                                                                          Categorical Exclusion
                                                   5.   Nutrition, healthcare, population or FP (No
            Environment?                                                                                               22-CFR
                                 Yes                    bldg, Wastes, Wastewater)
                                                                                                                       216.2(c)
                                                   6.   Credit activities with no impacts resulting
                                                        from loans
             Design Team                           7.   Maternal/Child feeding
            in Consultation
              with Mission                                                                                Negative
            Environmental                                                                               Determination
                 Officer                                                                    No        without conditions
                                                                        Negative
                                                                     Determination                                                Mitigation
                                                                                                             Negative           conditions are
                                                                      Do we need                          Determination
                                                                     to impose any          Yes                                  included in
                                    Initial                 No                                            with conditions          RFP/A
                                                                       mitigation /
                               Environmental                           monitoring
                                Examination                            measures                                  Scoping
                              Does the Activity                                                                 Statement
                              have a significant                                                                with public       EA Report
                                effect on the                                                                   Hearings
                               environment?                 Yes          Positive
                                                                                                  EA
                                                                      determination
                                                                                               required        Consult with
  Source: USAID/Egypt                                                                                           MEO/REA




                                                                                                                                                 24
                                                                            APPENDIX VI


                       Environmental Staffing and Procedures

Environmental Staffing: The Mission Director may appoint a mission environmental
officer to assist and advise mission staff and implementing partners and contractors in
preparing documents for new activities and for monitoring on ongoing activities. While
the mission environmental officer assists and advises on environmental requirements,
the strategic objective team leader and activity managers share the responsibility and
accountability for meeting environmental requirements. However, the Mission Director
has the ultimate responsibility to ensure that environmental compliance is achieved for
mission projects. Typically, mission environmental officer duties are only part of the full
range of tasks of a USAID staff position.

At some missions, regional environmental advisors at a mission support field offices in a
geographic region. These advisors provide supplementary professional support,
training, compliance auditing, compliance evaluations, and regional coordination on
environmental compliance issues to Mission Directors, strategic objective teams, activity
managers, and mission environmental officers.            At USAID/Egypt, the regional
environmental officer is physically located in the mission within the Office of Middle East
Programs.

Bureau environmental officers are based in Washington, DC, and oversee and monitor
environmental compliance issues for its operating units within a bureau. As a part of the
job, the bureau environmental officer decides and approves environmental documents
and ensures that bureau staff are aware of and trained in the appropriate required
procedures and standards.

Environmental Procedures: USAID/Egypt’s AOTRs or COTRs prepare an Initial
Environmental Examination with guidance from the mission environmental officer.
These technical staff perform environmental reviews as a part of the Activity Approval
Document process. For some projects when an activity is not developed enough, staff
may not be able to define the activity in sufficient detail at the pre-obligation planning
stage. For those activities, staff perform environmental reviews prior to the commitment
of funds. In the next phase, the AOTR, COTR or activity manager assures that required
environmental reviews are conducted during project implementation. When required,
implementing partners or contractors prepare environmental review documents to
determine the scope and extent of environmental evaluation, mitigation, and monitoring
necessary to fulfill environmental compliance requirements.

Although not an ADS requirement, missions or implementing partners may develop
Environmental Mitigation and Monitoring Plans as a best practice to document the
measures required by the Initial Environmental Examination or the Environmental
Review documents. A mission may implement these plans to lessen (or mitigate) any
potential environmental impacts of an activity. Additionally, the plan may include
indicators or criteria for monitoring their implementation and effectiveness and specify
staff responsible for mitigation and monitoring. The projects reviewed at USAID/Egypt
did not have separate Environmental Mitigation and Monitoring Plans, but incorporated
mitigation and monitoring requirements into project technical specifications and work
plans.




                                                                                    25
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
